OIG Investigative Reports, Grand Jury Returns 47-Count Indictment Charging Layton Couple with Alleged Scheme to Defraud Davis School District of More Than $4 Million
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
November 22, 2006
U.S. Department of Justice
Brett L. Tolman
United States Attorney
District of Utah
CONTACT:. MELODIE RYDALCH
U. S. Attorney's Office
Phone: 801 325 3206
Cell: 801 243 6475
Grand Jury Returns 47-Count Indictment Charging Layton Couple
with Alleged Scheme to Defraud Davis School District of More Than $4 Million
SALT LAKE CITY - A federal grand jury returned a 47 count indictment
Tuesday evening, unsealed Wednesday morning, charging a Layton, Utah, couple
with mail fraud, money laundering, theft from a state agency receiving federal
funds, and copyright infringement in connection with an alleged scheme that
defrauded the Davis School District of $4,295.786.95.
Charged in the indictment are Susan G. Ross, age 62, and John Ross, age 64.
The pair wild be issued a summons to appear in federal court Monday at 9 a.m.
Defendants charged in indictments are presumed innocent unless or until proven
guilty in court
The indictment was announced today by U.S. Attorney for Utah Brett L. Tolman;
FBI Special Agent in Charge Timothy J. Fuhrman; Patricia Van Gilder, Special
Agent in Charge, U.S. Department of Education Office of Inspector General; Farmington,
Utah, Police Chief Wayne D. Hansen, and IRS Special Agent Ted Elder.
The case is being investigated by the FBI, U.S. Department of Education Office
of Inspector General, the IRS, and the Farmington, Utah, Police Department.
According to the indictment, Susan G. Ross was employed by the Davis School
District as director of federal programs. As a part of her work, she was involved
in developing and administering primary and secondary education programs and,
according to the indictment, exercised considerable discretion over the use
of federal grant funds received by the school district. John D. Ross was a former
employee of the Utah Office of Education: From March 2000 to February 2005,
he was employed by the school district as a grant specialist. In this position,
he was responsible for obtaining grants from the U.S. Department of Education.
Between 1998 and 2005, according to the indictment, the Davis School District
received more than $2 million each year in benefits under federal programs involving
grants, subsidies; and other forms of federal assistance, including Title I
funding. Title I is the largest U.S. Department of Education program supporting
elementary and secondary education and was designed to help educate financially
disadvantaged students who struggle academically. Through the Title I program,
the Department of Education distributes money to local school districts for
use in programs that serve the needs of eligible students
The indictment alleges the defendants devised a scheme to get the school district
to purchase unauthorized copies of copyrighted books for use in its Title 1
program at fraudulently, inflated prices from Notable Education Writing Services
(NEWS), a company owned and controlled by the defendants, through an intermediary
company, Research and Development Consultants, Inc. (R&D). R&D was run by two
professional associates of Susan and John Ross.
According to the indictment, the defendants routed purchases through R&D and
had the school district mail checks to R&D to conceal the defendants' identity
as the recipients of the payments for the material purchased by the Davis School
District. The defendants used NEWS to collect the proceeds of their scheme to
defraud the school district. Money deposited into bank accounts maintained by
NEWS was used for the personal benefit of the defendants, the indictment alleges.
According to the indictment, between Jan. 1, 2000, and May 6, 2005, the defendants
caused the Davis School District to pay R&D approximately $4,295,786.95 for
the purchase of educational materials for the Title 1 program.
As a result of the scheme, the indictment alleges, the school district paid
higher prices for the books and educational materials purchased from R&D than
it would have if Susan and John Ross had solicited competitive bids from other
vendors. As charged in the indictment, the prices charged by R&D were as much
as seven times the list prices for the same books as sold by the publishers.
For example, in one case, R&D charged the school district $93 for a book that
at that time had a list price of $13.22. Additionally, the list prices were
for hardbound professionally produced books. The copies R&D sold to the district
were spiral bound stacks of color copies.
The indictment also alleges that the defendants split the proceeds of the scheme
with R&D. R&D kept approximately 8 percent of the funds it received from the
school district and paid the remainder of the funds to the defendants in the
guise of NEWS. The only substantive service performed by R&D for its share of
proceeds of the fraud scheme, the indictment alleges, was to receive purchase
orders from the school district, forward the order to NEWS, and submit fraudulently
inflated invoices back to the school district.
In furtherance of the scheme, the indictment alleges, the defendants contracted
with third party printing companies to make copies of the books and educational
materials ordered by the Davis School District. The defendants falsely represented
to the printing companies and R&D that they had obtained permission from the
copyright holders to make copies of the books they had caused the school district
to order.
The indictment alleges the defendants then used proceeds to pay personal expenses.
As a part of the indictment, federal prosecutors filed a notice of intent to
seek criminal forfeiture in the case, including a sum of money equal to at least
$4,295,786.95. Prosecutors also are seeking property and money funded by or
purchased with proceeds obtained as a result of the offenses charged in the
indictment, including money held at banks, cars, and other accounts.
Susan G. Ross and John D. Ross are charged with 13 counts of mail fraud which
each carry potential maximum penalties in federal prison of 20 years; 14 counts
of money laundering which each carry a potential maximum penalty of up to 20
years; 13 counts of theft from a state agency receiving federal funds, which
each carry a potential maximum penalty of up to 10 years in prison; and seven
counts of willful infringement of copyright, which each carry potential five-year
maximum penalties.
In a related case, a federal grand jury also returned a 37-count indictment
charging Stella Smith, age 54, of Layton, with mail fraud. Smith worked as a
secretary to Susan Ross at the Davis School District. As a part of her duties,
Smith was given responsibility for some of the day to day management of the
district's Title I procurement process. The indictment alleges that beginning
in about 1999, Smith devised a scheme to defraud the Davis School District of
Title I and other funds. As a part of the scheme, she formed a company known
as E.B. Smith Company, a name similar to the name of her husband.
The indictment alleges that Smith submitted paperwork to the school district
to approve E.B. Smith Company as a vendor for books and materials for the district.
Once the company was approved, according to the indictment, Smith caused purchase
orders for books that had not been requested by district employees and that
were not necessary for school programs to be submitted to E.B. Smith Company
from the Davis School District Purchasing Department for approval. Under the
district's approval process, Smith could personally submit requests to the purchasing
department under a $1,000 threshold without management approval.
Once the purchase orders were issued, Smith mailed or caused to be mailed fraudulent
invoices representing that the E.B. Smith Company had supplied the requested
books to the district, when in truth no such books had been provided. As a result
of the fraudulent invoices, the school district issued checks for fictitious
purchases and mailed them to the company.
The indictment alleges Smith submitted invoices totally about $338,189 to the
district on scores of occasions from 1999 to 2005.
A summons will be issued to Smith, who faces up to 20 years per count if convicted
of the charges. Again, defendants charged in indictments are presumed innocent
unless or until proven guilty in court.
Top
Printable view
Share this page
Last Modified: 12/04/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov